                                    Office of the Inspector General
                    United States Government Accountability Office


GAO/OIG

December 2009
                SEMIANNUAL
                REPORT



                April 1, 2009—
                September 30, 2009




GAO/OIG-10-2
                                                          Office of the Inspector General
                                          United States Government Accountability Office




Memorandum
Date:       December 7, 2009

To:         Acting Comptroller General Gene L. Dodaro

From:       Inspector General Frances Garcia

Subject:    Semiannual Report—April 1, 2009, through September 30, 2009

In accordance with Section 5 of the Government Accountability Office Act of 2008
(GAO Act), I am submitting my semiannual report for the second half of fiscal year
2009 for your comments and its transmission to the Congress.

During this period, the Office of the Inspector General (OIG) continued to undertake
a number of actions to implement requirements in the GAO Act and selected
provisions in the Inspector General Reform Act of 2008. These actions included
drafting a revised GAO order and policies and procedures, to incorporate our
statutory role and responsibilities; making changes to GAO’s intranet to improve
visibility of the OIG and its hotline to employees and contractors; and participating in
the Council of Inspectors General on Integrity and Efficiency.

In addition, we issued one report with recommendations (GAO/OIG-09-3): our
evaluation of four of GAO’s people performance measures—staff development, staff
utilization, leadership, and organizational climate. (See attachment for a summary of
this report and GAO actions to address the report’s recommendations.) Further, we
initiated a review of the agency’s timeliness measure, and based on methodological
and other issues raised during our review, GAO has agreed that the issues are worthy
of further examination and will be fully analyzed. As a result, we will monitor the
changes made and reassess the measure when those changes are completed. We also
completed an audit risk assessment of GAO to aid in our development of risk-based
audit work plans. Our ongoing work includes two reviews of GAO performance
measures (financial benefits and testimonies) and a review of the agency’s
information systems security program in voluntary compliance with the requirements
of the Federal Information Security Management Act of 2002 (FISMA).

Regarding our efforts to identify potential fraud, waste, and abuse within GAO, we
completed action on 6 open complaints from the prior semiannual report and
received 42 inquiries and allegations this reporting period through our hotline and
other sources. Because 28 of these 48 cases concerned matters related to other
federal agencies, we closed them with a referral to GAO’s FraudNet—a
governmentwide hotline that receives complaints of fraud, waste, and abuse of
federal funds—or, in one case, to the appropriate agency OIG. We closed an


Page 1                                              GAO/OIG-10-2 Semiannual Report
additional 12, which included potential misrepresentation of GAO or its officials and
inquiries for information, because there was no basis for further action. We
investigated and closed 6 other cases that involved complaints concerning GAO
reports, employee misconduct, the abuse of and fraudulent charges on government
travel cards, and misuse of GAO credentials by a former contractor employee.
Because of our investigations, GAO suspended an employee for misconduct and has
restricted the types of merchants or businesses where its travel cards can be used
and thereby reduced the risk of fraud and abuse. In addition, GAO ensured the
credentials of the former contractor employee were retrieved and destroyed. Lastly,
at the end of the reporting period, two cases submitted during this reporting period
remained open.

In response to recommendations made in prior OIG reports, GAO has taken the
following actions:

    •    Based on Diversity at GAO: Sustained Attention Needed to Build on Gains
         in SES and Managers (GAO-08-1098; Sept. 10, 2008), GAO is in the process of
         revising an order to establish a requirement for an annual Workforce Diversity
         Plan1 and to clarify responsibilities and procedures when a complaint involves
         staff within GAO’s Office of Opportunity and Inclusiveness. GAO has obtained
         comments on the draft order and expects to issue the order by the end of 2009.

    •    Based on Independent Evaluation of GAO’s Information Security Program
         and Practices—Fiscal Year 2008 (GAO/OIG-09-1, Oct. 2, 2008), GAO
         expanded its inventory of information systems to be consistent with FISMA
         requirements, began incorporating specific security language in information
         technology acquisitions, revised its annual awareness training to highlight
         GAO’s information security policies and procedures, and created tools and
         continued negotiations to help ensure that service providers give GAO
         periodic updates on their security weaknesses. In addition, for its privacy
         program, GAO drafted a new order and made revisions to 4 C.F.R. part 83,
         Privacy Procedures for Personnel Records of the Government Accountability
         Office, to establish policies and procedures for protecting the privacy of
         personally identifiable information, created and implemented a Privacy Impact
         Assessment process, and reported completing these privacy impact
         assessments for 23 agency information systems.

Attachment

cc: Sallyanne Harper, Chief Administrative Officer
    Lynn Gibson, Acting General Counsel
    Sheldon Cohen, Chair, Audit Advisory Committee
    Judith O’Dell, member, Audit Advisory Committee
    Edward Mazur, member, Audit Advisory Committee




1
 On June 30, 2009, GAO published its second Workforce Diversity Plan.



Page 2                                                      GAO/OIG-10-2 Semiannual Report
Attachment

                   Summary of OIG Reports and GAO Actions


Reports Issued April 1, 2009, through September 30, 2009

Four People Performance Measures: Many Attributes of Successful Measures Met;
Opportunities Exist for Further Enhancements (GAO/OIG-09-3, Aug. 31, 2009)

Findings: In this report, the OIG concluded that, in fiscal year 2007, GAO accurately
calculated the four performance measures reviewed—staff development, staff
utilization, leadership, and organizational climate. Further, of the nine attributes of
successful performance measures identified by previous GAO work, staff utilization
and organizational climate met all of the attributes, and staff development and
leadership met many of the attributes. The OIG also found that GAO could improve
disclosure in and understanding about the measures in its annual performance report.
The four measures’ scores are derived from GAO’s Employee Feedback Survey.

Recommendations and GAO Actions: The report included four recommendations to
improve the measures. GAO management took action in response to each of the
recommendations. In its fiscal year 2009 performance report, GAO has made a
number of additional disclosures about these performance measures. First, GAO has
disclosed that the scores for the four measures are calculated by excluding survey
respondents who select “no basis/not applicable” and that, for two measures,
including these respondents would result in a different percentage (or score).
Second, GAO clarified that its leadership measure focuses on supervisory leadership
by changing its name to “effective leadership by supervisors.” Third, GAO is replacing
one of this measure’s survey questions on how effectively supervisors dealt with
equal employment opportunity and discrimination issues because of the large number
of respondents who answer “no basis/not applicable” to this question. Further, GAO
drafted written procedures to ensure changes made to measures and any effects on
performance data comparability are promptly reported.




(998282)



Page 3                                             GAO/OIG-10-2 Semiannual Report
Reporting Fraud,          To report fraud, waste, and abuse in GAO’s internal operations, do
Waste, and Abuse in       one of the following. (You may do so anonymously.)
GAO’s Internal
                      •   Call toll-free (866) 680-7963 to speak with a hotline specialist,
Operations                available 24 hours a day, 7 days a week.

                      •   Send an e-mail to OIGHotline@gao.gov.

                      •   Send a fax to the OIG Fraud, Waste, and Abuse Hotline at (202) 512-
                          8361.

                      •   Write to:
                          GAO Office of Inspector General
                          441 G Street NW, Room 1808
                          Washington, DC 20548

Obtaining Copies of       To obtain copies of OIG reports and testimony, go to GAO’s Web
                          site: www.gao.gov/about/workforce/ig.html.
GAO/OIG Reports and
Testimony

Congressional             Ralph Dawn, Managing Director, dawnr@gao.gov, (202) 512-4400
                          U.S. Government Accountability Office, 441 G Street NW, Room
Relations                 7125 Washington, DC 20548

Public Affairs            Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
                          U.S. Government Accountability Office, 441 G Street NW, Room
                          7149 Washington, DC 20548




                          This is a work of the U.S. government and is not subject to copyright protection in the
                          United States. The published product may be reproduced and distributed in its entirety
                          without further permission from GAO. However, because this work may contain
                          copyrighted images or other material, permission from the copyright holder may be
                          necessary if you wish to reproduce this material separately.




                                 Please Print on Recycled Paper
